NOTICE OF CONSENT
No. 20-435
WALTON B. CAMPBELL,

Petitioner,
v.

RYAN D. MCCARTHY, U.S. DEPARTMENT OF THE ARMY,
Respondent
I hereby certify that I received the attached letter from the Acting Solicitor
General indicating Respondent’s consent to the filing of the Brief of Amici Curiae
National Security Legal Academics in Support of Petitioner.
I declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct.
Date: November 4, 2020
Respectfully submitted,
/s/ Kelly McClanahan
Kelly McClanahan

Counsel of Record

National Security Counselors
4702 Levada Terrace
Rockville, MD 20853
301-728-5908
Kel@NationalSecurityLaw.org

Counsel for Amici Curiae

U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

November 3, 2020

Kel McClanahan, Esq.
Executive Director
National Security Counselors
Kel@NationalSecurityLaw.org
Re:

Campbell v. McCarthy
S. Ct. No. 20-435

Dear Mr. McClanahan:
As requested in your letter of October 26, 2020, I hereby consent to the filing of an amicus
curiae brief in the above-captioned case on behalf of a coalition of legal scholars.
Very truly yours,

JEFFREY B. WALL
Acting Solicitor General

